n a

fte
!
si b
u

“Sip Supreme (Court of (©trio

ft;Sb» If

HAR 25 2020

SWRefe COtiRTQFOHJQ

State of Ohio ex rel. Jeremy Kerr

Case No. 2019-1196

v.

JUDGMENT ENTRY

Judge Reeve Kelsey

APPEAL FROM THE
COURT OF APPEALS

This cause, here on appeal from the Court of Appeals for Wood County, was
considered in the manner prescribed by law. On consideration thereof, the judgment of
the court of appeals is affirmed, consistent with the opinion rendered herein.
It is further ordered that a mandate be sent to and filed with the clerk of the Court
of Appeals for Wood County.

(Wood County Court of Appeals; No. WD-19-047)

Maureen O’Connor
Chief Justice

The official case announcement, and opinion if issued, can be found at
http://www.supremecourt.ohio.gov/ROD/docs/

State ex rel. Kerr v. Kelsey, 2020-Ohio-1057
Supreme Court of Ohio
January 28, 2020, Submitted; March 25, 2020, Decided

No. 2019-1196
I*P11 This appeal involves a request by appellant, Jeremy Kerr, for a writ of prohibition to vacate
judgments in two civil cases. The court of appeals dismissed Kerr's complaint. We affirm.
I*P2] This case follows two civil cases in which Kerr was a party and in which appellee, former Wood
County Court of Common Pleas Judge Reeve Kelsey, presided. In the first case, filed in 2011, Keith
Lenz sued Kerr Building, Inc. After Kerr Building failed to answer Lenz's complaint, the common pleas
court entered default judgment in Lenz's favor. The common pleas court then allowed Lenz to amend
his complaint to add Kerr as a defendant and r**21 ultimately entered judgment against Kerr Building
and Kerr, jointly and severally.
I*P3] Following that judgment, in 2013, Lenz filed a second lawsuit alleging that Kerr Building and
Kerr had fraudulently transferred real property to another of Kerr's business entities to avoid
attachment of the judgment lien from the first lawsuit. The common pleas court entered judgment in
Lenz's favor, enjoining Kerr and his entities from transferring the property.
I*P41 In 2019, Kerr filed a complaint for a writ of prohibition in the Sixth District Court of Appeals
against Judge Kelsey, alleging that multiple errors in the two civil cases rendered the judgments in
those cases void. The court of appeals dismissed Kerr's petition sua sponte. Kerr appealed to this
court as of right.
|*P5l Kerr has already tried to vacate the civil judgments at issue in this case by filing a mandamus
claim in this court in 2018 (case No. 2018-0100). The doctrine of res judicata provides that "[a] valid,
final judgment rendered upon the merits bars all subsequent actions based upon any claim arising out
of the transaction or occurrence that was the subject matter of the previous action." Grava v. Parkman
Twp., 73 Ohio St.3d 379, 1995-Ohio-331. 653 N.E.2d 226 (19951, syllabus. We did not specify
otherwise in our T**31 entry dismissing Kerr's mandamus complaint in case No. 2018-0100, so the
dismissal operated as an adjudication on the merits. See Civ.R. 41(6113). Because Kerr's prior lawsuit
attacking the validity of the same underlying judgments has been adjudicated on the merits, his
current claim is barred by res judicata.
Judgment affirmed.

t

1 /1

UNITED STATES OF AMERICA
STATE OF OHIO
OFFICE OF THE SECRETARY OF STATE

I, Jon Husted, do hereby certify that I am the duly elected, qualified and present acting
Secretary of State for the State of Ohio, and as such have custody of the records of Ohio
and Foreign business entities; that said records show NO RECORD of any Ohio
corporation, foreign corporation, Ohio limited liability company, foreign limited liability
company, Ohio limited partnership, foreign limited partnership, Ohio limited liability
partnership, foreign limited liability partnership, trade name registration or report of use
offictitious name, either active or inactive, known as KERR BUILDING INC., filed in this
office, as of the date of this certificate.

Witness my hand and the seal of the
Secretary of State at Columbus, Ohio
this 2nd day ofJanuary, A.D. 2014.

Ohio Secretary of State
Validation Number:

201400200953

08/06/2019

14:15

4192134844

*000 CoW. OHIO
'

6TH DISTRICT CQA

RASE

-

291S AUG "6 PH 3: UO

!

IN THE COURT OF APPEALS OF OHIO
SIXTH APPELLATE DISTRICT
WOOD COUNTY
State of Ohio, ex rel. Jeremy Kerr

Court of Appeals No. WD-19-047

Relator
v.
AND JUDGMENT

Judge Reeve Kelsey
Respondent

Decided:

AUG «6 2019

i

Jeremy Kerr, pro se.
*** * *
!

ZMUDA, J.
1} Relator, Jeremy Kerr, proceeding pro se, filed this original action seeking a

i

writ of prohibition against respondent Judge Reeve Kelsey, retired judge from the Wood
County Court of Common Pleas. Under 6th.DistLoc.App.R. 6(B), respondent is only
required to file a responsive pleading or a motion to dismiss in the event we determine
relator properly set forth a claim for relief and issue an alternative writ providing a

JOURNALIZED

1.

COURT OF APPEALS
AUS 06 2019

01/11

06/06/2019 14:15

4192134644

6TH DISTRICT CQA

PAGE

for such a response. Because relator’s complaint fails to properly set forth a
claim for relief, we decline to grant an alternative writ and no responsive filing is
requited. Relator’s feilure to show respondent bad a patent and unambiguous lack of
subject-matter jurisdiction, or that he lacked an adequate remedy in the ordinary course of
law, render his claim insufficient and warrant dismissal.
I. Background
{f 2} Relator identifies six interrelated issues on which he seeks relief.1
»>♦

rnmpiaint at J 20-66. Each of these issues arise form previous civil litigation in Wood
County, Ohio. In the first action, Keith Lena, a non-party to this request for a writ of
prohibition, filed a civil action against Ken Building, Inc. in the Wood County Court of
Common Pleas—case No. 201 l-CV-0852. Complaint at f 4. Kerr Building, Inc. felled
to file any responsive

and respondent entered default judgment against it on

January 27,2012. Complaint at ^ 8-10. Lenz subsequently filed a motion to pierce the
corporate veil to seek damages from relator individually. Complaint at^f 11. Respondent
the motion as relator was not a party to die action hut granted leave for Lenz to
file a motion for leave to amend to add relator as a party. Complaint at % 12. Lenz’s
motion for leave to amend was granted and his amended complaint added relator as a
d-fonifit to a claim entitled “Officer’s Liability for Corporate Action.” Complaint at

1 In dismissing a complaint for writ of prohibition sua sponte, we must presume all fads
alleged in the complaint ate true. Barnes v. Beachwood, 8th Dist. Cuyahoga No. 87100,
2006-0bio-3,t 13-15.

JOURNALIZED

2.

COURT OF APPEALS
AU6 06 20B

02/11

08/06/2019

14:15

4192134844

6TH DISTRICT CQA

PAGE

^ 13. Relator filed a motion to dismiss the amended complaint arguing it was improper
following entry of de&ult against Kerr Building, Inc. Complaint at ^ 14. Respondait
denied the motion and ultimately entered judgment in Lenz’s fevor against both Kerr
Building, Inc. and relator, jointly and severally, for damages in the amount of $234,670.
Complaint at f 15-16.
3} Relator was later named in a separate action involving the transfer of certain
parcels of land—Wood County Court of Common Pleas case No. 213-CV-0643.2
Complaint at K 17-19. There, Lenz alleged relator fraudulently transferred four parcels of
real estate to a development company. Complaint at 117. Lenz sought to encumber title
to those parcels with a judgment lien from the previous litigation and sought an
injunction preventing the further transfer of the real property. Complaint at 118.
Respondent granted the injunction. Complaint at 119. It is on these facts relator seeks a
writ of prohibition from this court
IL Law and Analysis
(f 4} “In order to obtain a writ of prohibition, relator must prove: (l)thatthe
court or officer against whom foe writ is sought is about to exercise judicial or quasi­
judicial power, (2) that the exercise of that power is unauthorized by law, and (3) that
denying a writ will result in injury for which no other adequate remedy exists in foe

2 Relator makes no separate reference to respondent’s subject-matter jurisdiction in Wood
County case No. 213-CV-0643. As a result, there is no basis for granting foe requested
writ in regard to judgment entered in font action.

JOURNALIZED

3.

COURT OF APPEALS
AUG 06 208

83/11

08/06/2019

14:15

4192134844

GTH DISTRICT COA

PAGE

ordinary course of law.” State ex rel. Keenan v. Calabrese, 69 Ohio St.3d 176,178,631
N£.2d 119 (1994). A writ of prohibition can also issue in instances when the lower
court has already exercised judicial power, as is die case here. See State ex rel TJL.M. v.
Judges ofFirst Dist. Ct. ofAppeals, 147 Ohio St.3d 25, 2016-0hio-1601,59 N.E.3d
1260, H 9-10. The basis on which a writ of prohibition will be granted for fixture and past
exercise ofjudicial power is the same. Id,
5} The purpose of a writ of prohibition is to restrain inferior courts from
exceeding their jurisdiction. State ex rel Jones v. Suster, 84 Ohio St.3d 70,73,701
NJE.2d 1002 (1998). It is an “extraordinary remedy which is customarily granted with
caution and restraint, and is issued only in cases of necessity arising from tile inadequacy
of other remedies.” Id., citing State ex rel Henry v. Britt, 67 Ohio SL2d 71,73,424
N.E.2d 297 (1981). It is intended to determine “solely and only” the lower court’s
subject-nutter jurisdiction. Id., citing State ex rel Eaton Carp v. Lancaster, 40 Ohio
St3d 404,409,534 N£.2d 46 (1988). If the lower court does not patently and
unambiguously lack jurisdiction, it has the ability to determine its own jurisdiction. State
ex rel Bradford v. Trumbull Cty. Court, 64 Ohio St3d 502,597 N.E.2d 116 (1992). A
writ of prohibition will not issue without a patent and unambiguous lack ofjurisdiction
and a lower court’s holding that it has jurisdiction following a challenge to the same must
be addressed through an appeal. Id. Put simply, if there is not a patent and unambiguous
lack ofjurisdiction, relator’s objections to the trial oouit’s actions must be raised on
appeal and his request for a writ of prohibition will be denied. Id.

4.

AU6 0 6 2019

04/11

08/06/2019

14:15

4192134844

6TH DISTRICT COA

PAGE

{f 6} Initially, we note that sua sponte dismissal of a complaint for a writ of
prohibition is generally inappropriate. State ex rel Jones v. GarfieldHts. Aiun. Ct, 77
Ohio St3d 447,447-448,674 NJB.2d 1381 (1997), citing State ex rel Cossett v.
Executive State Governors Federalism Summit, 74 Ohio St.3d 1416,655 N.E.2d 737
(1995). However, dismissal is warranted when die complaint is frivolous or the claimant
cannot prevail on the facts alleged in the complaint Id Here, we find relator is unable to
prevail on the foots alleged in the complaint as all issues raised could have been
addressed on direct appeal from the trial court’s judgment, providing relator with an
adequate remedy at law. We recognize that relator is not required to establish foe lack of
an adequate remedy if there is a patent and unambiguous lack of subject-matter
jurisdiction exercised by respondent. State ex rel Sapp v. Franklin Cty. Court of
Appeals, 118 Ohio St3d 368,2008-Ohio-2637,889 N.E.2d 500, If 15. Tbe foots alleged
in relator’s complaint foil to support any such lack ofjurisdiction to relieve him of this
requirement.
AT 7} Relator’s complaint identifies what he believes to be multiple errors by
respondent These include granting a defoult judgment against a “non-legal entity”
(Count 1), a lade of personal jurisdiction ova Kerr Building, Inc. due to lack of service
(Count 2), and various allegations regarding respondent’s granting of leave to amend a
pleading to add a claim against relator (Counts 3-6). Each issue identified by relator
constitutes an issue of law unrelated to subject-matter jurisdiction.

JOURNALIZED

$.

COURT OF APPEALS
AUG 06 2019

05/11

08/06/2019

14:15

4192134844

6TH DISTRICT COA

PAGE

{f 8} Subject-matter jurisdiction is the power of a court to entertain and adjudicate
a particular class of cases. Bank ofAm. v. Kuchta, 141 Ohio St3d 75,2014-Ohio*4275,
21 N.E.3d 1040, f 19 (internal citations omitted). A court's subject-matter jurisdiction is
determined without regard to the rights of the individual parties involved in a particular
case. Id. Relator’s complaint mates no reference to the type of claim underlying the
judgments he seeks to reader void. Instead, he references only perceived errors in
respondent’s determination with regard to the rights of individual litigants. These do not
support a patent and unambiguous lack of subject-matter jurisdiction over die underlying
claims.
9} First, Count 1 of relator’s complaint argues tost Kerr Building, Inc. is a nonlegal entity and therefore not subject to toe default judgment entered against it3 Relator
makes no reference to the nature of the claim alleged against Kerr Building, Inc. Instead,
relator attached a January 2,2014 affidavit from toen-Ohio Secretary of State, John
Husted, indicating his office had no record of any documents having been filed by Kerr
Building, Inc. Complaint atf 5, Exhibit 1. Accepting this affidavit on its face, it does
not indicate respondent patently and unambiguously lacked subject-matter jurisdiction
over claims against Kerr Building, Inc. by virtue of it not being registered with toe
Secretary of State. R.C. 1329.10(C) specifically authorizes an action to “be commenced

3 It is unclear how an improper granting of default judgment against a separate entity
would render judgment against relator void when he appeared and defended himself in
the action.

JOURNALIZED

6.

COURT OF APPEALS
AU6 06 20IS

06/11

08/06/2019

14:15

or

4192134844

GTH DISTRICT COA

PAGE

against the user of a trade name or fictitious name whether or not the name

has been registered or repotted” to the secretary of state. R.C. 1329.10(C), see also
Family Medicine Foundation, Inc. v. Bright, 96 Ohio St3d 183,772 K£,2d 1177 (2002)
(holding commencement and maintenance of a civil action against die user of a trade or
fictitious name is not invalid on its face). The allegations in Count 1 of relator's
complaint only show that Kerr Building, Inc. was not registered with the Secretary of
State, not that respondent lacked subject-matter jurisdiction over the type of claim alleged
against it.
{{10} Further, to the extent respondent's judgment impacted relator, he had an
adequate remedy at law to challenge any judgment against him both at trial and through
appeal of any adverse judgment. Relator chose to exercise this option by appearing and
defending the claims against him at tire trial court Complaint at J14-15. While his
complaint is silent as to whether the judgment against him was appealed, that action, or
inaction, is irrelevant to determining whether he had an adequate remedy at law.
Allowing tiie time for appeal to lapse does not deprive relator of an adequate remedy at
law to satisfy the requirements for granting the requested writ See State ex rel. Tran v.
McGrath, 78 Ohio St.3d 45,47,676 N.E2d 108 (1997),
*

{f 11} Assuming all allegations in Count 1 of his complaint are true, relator can
only succeed in showing that Ken* Building, Inc. is not a registered entity in the state of
Ohio. This alone does not preclude judgment against it and does not provide any
indication as to why the underlying claims were outside those the trial court was

JOURNALIZED

7.

COURT OF APPEALS
AUG 06 2019

07/11

08/06/2019

14:15

4192134844

6TH DISTRICT COA

PAGE

authorized to hear under existing law. In the event this judgment against & separate entity
did impact relator, he appeared and defended himself in that same action and had an
adequate remedy at law to appeal die adverse judgment Therefore, Count 1 of the
complaint foils to support any of the elements necessary for the granting of the requested
writ
{f 12} Count 2 alleges respondent “lacks personal jurisdiction over ‘Kerr
Building, Inc.’” due to lade of service. Complaint at U 36. Personal jurisdiction is the
power of a court to enter a valid judgment against a person. In re. Shepard, 4th Dist,
Highland No. 00CA12,2001 WL 802209 (Mar. 26,2001), citing Meadows v. Meadows,
73 Ohio App.3d 3)6,596 N.E.2d 1146 (3d Dist.1992). Lade of personal jurisdiction is
an affirmative defense established in CivJR. 12(B)(2). “It is axiomatic that Ohio courts
can exercise jurisdiction over a person who is a resident of Ohio.” Prouse, Dash &
Crouch, LLPv. DiMarco, 116 Ohio St.3d 167,2007-Ohio-5753, 876 N£.2d 1226, H 5.
Relator makes no allegation that Kerr Building, Inc. is not a resident of Ohio for purposes
of personal jurisdiction. Instead, relator makes the related, but distinct claim that Kerr
Building, Inc. was not properly served in the underlying action. Complaint at ^ 36,
CivJR. 12(B)(5). Essentially, relator claims that the underlying action was never properly
commenced against Kerr Building, Inc. In accordance with Ohio Civ.R. 3(A) and
therefore the judgments against him were void. This claim is unrelated to subject-matter
jurisdiction.

JOURNALIZED

8.

COURT OF APPEALS
AUG 06 2019

08/11

08/06/2019 14:15

4192134844

6TH DISTRICT COA

PAGE

{f 13} A lack of service defense is an issue of law subject to de novo review by
appellate courts. SeeHubiakv. Ohio Family Practice Center, 2014-Ohio-3116,15
N.E.3d 1238,17-11 (9th Dist.). Commencement of an action requires the filing of a
fiornp1”*"* and service upon a named defendant within a year from suds filing. Civ JL
3(A).4 Whether the action was properly commenced against Kerr Building, Inc. is a
jefcnw which could have been raised by the entity itself. Civ.R, 12(B)(5). Count 2 of
relator's ™™piwl«t fails to identify any facts under which die granting ofjudgment
ag.ingt Kerr Building, Inc. divested respondent of subject-matter jurisdiction over claims
ygawnct relator individually. Assuming relator’s claim is that vacating the judgment
against the corporate entity would likewise vacate the judgment against him, lade of
service against the entity merely constitutes an affirmative defense to be raised at trial
and is unrelated to subject-matter jurisdiction. Id., Civ.R. 12(B).
{f 14} Additionally, relator Ms to allege any facts in Count 2 of his complaint
which support his legal conclusion that this affirmative defense, presumed to be true for
purposes ofthis decision, somehow renders the judgment against him void. Complaint at
136-37. Relator appeared and defended himself in the underlying actions. Complaint at
^ 14-16. Any errors by respondent with regard to lack of service on Kerr Building, Inc.,
to the extent it impacted the judgment against relator, are issues of law relator could have

4 Notably, despite challenging respondent's decision to permit relator to be added to foe
underlying action, relator does not allege he himselfwas not property saved in foe
underlying action.

JOURNALIZED

9.

COURT OF APPEALS
AU60820B

09/11

06/06/2019

14:15

4192134644

6TH DISTRICT CQA

PAGE

rused cm appeal. Hubiak at ^ 7-11. The ability to appeal the judgment against him
provided relator with an adequate remedy at law. Therefore, relator cannot succeed in
satisfying the elements necessary for issuance of die requested writ under Count 2 of his
complaint
{f IS} Counts 3 through 6 identify discretionary rulings made by respondent in the
first civil action as the basis for relator seeking die writ of prohibition. Each count
alleges respondent improperly granted Lenz leave to file an amended complaint The
basis for these arguments are procedural in nature with regard to die prior entry of defeult
or an alleged misapplication of CivJR-15. None ofthese arguments suggest a patent and
unambiguous lack of subject-matter jurisdiction. It is well-established that the granting
of leave to amend is within the discretion of a trial court and reversible on appeal under
an abuse of discretion standard. See State ex rel Wargo v. Price, 56 Ohio St2d 65,66,
381 N.E.2d 943 (1978). Respondent’s purported misapplication of Civ.R. 15 or use of
improper procedure in granting die motion for leave to amend is unrelated to subjectmatter jurisdiction. The facts in relator’s complaint present only discretionary issues
which are properly reviewed on appeal, not respondent’s authority to adjudicate the
claims against him. As a result, Counts 3 through 6 of relator's complaint fail to identify
a patent and unambiguous lack of subject-matter jurisdiction and relator had an adequate
remedy at law with regard to the granting of leave to add him as a party.
{f 16} In reviewing die complaint, and assuming all foots alleged to be true,
relator cannot succeed in showing respondent patently and unambiguously lacked

JOURNALIZED

10.

COURT OF APPEALS
AUG 06 208

10/11

08/06/2019 14:15

4192134844

6TH DISTRICT COA

PAGE

Subject-matter jurisdiction over the underlying claims or that relator Indeed an adequate
remedy in the ordinary course of law. Accordingly, we dismiss relator’s request for writ
of prohibition.
fll 17} Writ denied. Motion for waiver of costs denied. Costs assessed to relator.
W19} To the clerk: Manner of Service
ff 19} The clerk is directed to serve upon all parties, within three days, a copy of
this decision in a manner prescribed by Civ.R. 5(B).
Writ denied.

Arlene Singer. J._____
nhristine E. Mavle. P J.
Pane A. Tfrlliylfla 1,
CONCUR.

m
This decision is subject to further editing by the Supreme Court of
Ohio’s Reporter of Decisions. Parties interested in viewing the final reported
version are advised to visit the Ohio Supreme Court’s web site at:
htto^vww.supremccourt.0hi0.g0v/ROD/d0c5/.

li.

S
AU$06 2019

11/11

State ex rel. Kerr v. Kelsey, 2018 Ohio LEXIS 895
Supreme Court of Ohio
April 25, 2018, Decided
2018-0100
Reporter
2018 Ohio LEXIS 895 * I 152 Ohio St. 3d 1438 | 2018-Ohio-l600 | 96 N.E.3d 294 | 2018 WL 1942420
State ex rel. Kerr v. Kelsey.
Notice:
DECISION WITHOUT PUBLISHED OPINION

Core Terms
motion to strike, frivolous
Judges: i*U O'Connor. C.J., and O'Donnell, Kennedy, French, Fischer, DeWine, and DeGenaro, JJ.,
concur.

Opinion
MERIT DECISION WITHOUT OPIN
|
In Mandamus. On respondent's motion to dismiss. Motion Wanted. Cause dismissed. On relator's motion to strike and motion for
^^_Jfivolous conduct. Motions denied. On respondent's modoiWo strike relator's motion for frivolous conduct. Motion denied.
O'Connor, C.J., and O'Donnell, Kennedy, French, Fischer, DeWine, and DeGenaro, JJ., concur.

f

AFFIDAVIT PURSUANT TO OSC 2969.25
CIVIL COMPLAINTS AND CIVIL APPEALS FILED WITHIN
THE LAST FIVE YEARS BY JEREMY KERR
I, Jeremy Kerr 9 . after being duly cautioned and sworn
states as follows:
1

On 9-28-15, in the Northern District of Ohio (3:15-CV-

2006) Kerr v Turner
claimed that

I filed a Writ of Habeas Corpus in which I

my Wood County Conviction lacked sufficient evidencne.

The Writ, was denied.
2.
2438)

On 11-25-15, in the'Northern District of Ohio (3:15-CVKerry Turner, I filed a Writ of Habeas Corpus in which I

claimed that my Ottawa County Conviction lacked sufficient
evidence.
3.

The Writ was denied.
On 5-25-17, in the Ohio Supreme Court (2017-0717)

Kerr v Turner,

I filed a Writ of Habeas Corpus in which I claimeed

that my Wood County Conviction lacked sufficient evidence.

The

Writ was dismissed.
4.

On 9-1-17, or approxamatly around, in the BAP of the

Sixth Circuit (2017-8031)

McDermott v Kerr, I filed a Direct

Appeal of the Bankruptcy Court's Decision to dismiss my Bankruptcy
Petition.
5.

The case was dismissed on my motion.
On 10-25-17, in the Ohio Supreme Court (2017-1502)

State

ex rel Kerr v Reger, I filed a Writ of Mandamus to compel Judge
Reger to perform a De Novo Review of my challenge to a void
judgment.
6.

The Writ was dismissed.
On 1-22-18, in the Ohio Supreme Court (2018-0100)

State

ex rel Kerr v Kelsey, I filed a Writ of Mandamus to compel Judge
Kelsey to conduct a De Novo Review of my challenge to a void

■ -1-

judgment.
7.

The Writ was dismissed.
On 3-20-18, in the Ohio Supreme Court (2018-0425)

State ex rel Kerr .v Reger,

I filed a Writ of Prohibition alleging

that my Wood County Conviction was void.
8.

On 7-23-18,

The Writ was dismissed.

in the Third Appellate District

(7-18-26)

Kerr Buildings, Inc v Bishop v lerr, I filed a Direct Appeal of
the Henry County Court's Decision denying my Motion to Vacate Void
Order Appointing Receiver.
9.

The case was dismissed.

On 8-30-18, in the Ohio Supreme Court

(2018-1063)

State ex rel Kerr v Reger, I refiled the ;Writ_ of‘.Prohibition in
paragraph 7 belieiving that I corrected the Complaint.
was dismissed.
10.

The Writ

.

On 9-21-18, in the Ohio Supreme Court (2018-1329)

State ex rel Kerr v.Collier, I filed a Writ of Prohibition allegig
that' the Henry County Court's Charging Order and Order Appointng
Receiver were void.
11.

The Writ was dismissed.

On 8-30-18, in the Third Appellate District

(7-18-28)

Kerr Buildings, Inc, v Bishop v Kerr, I filed a Direct Appeal of
the Henry County Court's Decision denying my Motion to Vacate the
void Charging Order and Order Appointing Receiver.

The case was

dismissed
12.

On 10-29-18, in the Ohio Supreme Court

(2018-1543)

State ex rel Kerr v Winter, I filed a Writ of Prohibition alleging
that my Ottawa County Conviction was void.
13.

The Writ was dismissed.

On 1-14-19, in the Sixth Appellate District (2018-WD-.

0005). State ex rel Kerr v Pollex, I filed a Writ of Prohibition
in which I claimed that the Wood County Court lacked subject matter

-2-

jurisdiction under ORC 2901.11(A).
14

The Writ was dismissed.

On 1-28-19, in the Third Appellate District

(9-19-0006)

State ex rel Kerr v Turner, I filed a Writ of Habeas Corpus
alleging that the Wood County Court lacked subject matter jurisdi
jurisdiction under ORC 2901.11(A).
15 .

The Writ was dismissed.

On 2-28-19, in the Ohio Supreme, Court

(2019-0307)

State ex rel Kerr v Turner, I filed a Writ of Habeas Corpus in
which I claimed that my Ottawa County Conviction was wholly devoid
of any evidence that could prove intent to deprive.

The Writ was

dismissed.
16.

On 4-29-19, in the Third Appellate District

(7-19-05)

State ex rel Kerr v Collier, I filed a Writ.of Prohibition,in
which I claimed that the Charging Order and Order Appointing Rece
Receiver were void because the Henry County Court violated my
Rights to Procedural Due Process by granting such Orders minutes
after the moving party filed it's motions
17.

The Writ was dismissed.

On 5-6-19, in the Third Appellate District

(7-19-06)

Kerr Buildings, Inc v Bishop v Kerr, I filed a Direct Appeal of
the Henry County Court's refusal to modify the Charging Orders.
The case was dismissed.
18.

On 5-17-19, in the Third Appellate District

(9-19-30)

State ex irel Kerr v Turner, I filed a Writ of Habeas Corpus in
which I claimed that my Ottawa County Conviction" was wholly devoid
of any evidence that could prove intent to deprive.

The Writ was

dismissed.
19.

On 6-4-19,r in the Ohio Supreme Court

(2019-0752)

..

State ex rel Kerr v Pollex, I filed a Direct Appeal of the Sixth

-3-

Appellate Court's Judgment Entry dismissingthe Complaint for Writ
Prohibition in paragraph 13
20.

On 5-6-19

in the Ohio Supreme Court (2019-0620)

State ex rel Kerr v Turner

I filed a Direct Appeal of the Third

Appellate District's Judgment Entry dismissing my requested
Writ of Habeas Corpus in paragraph 14. Judgment was affirmed.
21 .

6-24-19, in the Sixth Appellate District (20T9-WD-0047)

State ex rel Kerr v Kelsey, I filed a Writ of Prohibition in which
I claimed that the judgment rendered against me was void because
Judge Kelsey illegally allowed the plaintiff in the case to amend
me to a void Default Judgment.
22.

The Writ was dismissed.

On 6-28-19, in the Ohio Supreme Court (2019-0888)

State ex rel Kerry Collier, I filed a Direct Appeal of the Third
Appellate District's Judgment Entry dismissing my requested Writ
The judgment was affirmed because

of Prohibition in paragraph 16.

the Ohio Supreme Court wholly ignored the fact that Judge Collier
violated my Rights to Procedural Due Process.
23.

On 7-26-19, in the Ohio Supreme Court (2019-1024)

State ex rel Kerr v Turner, I filed a Direct Appeal of the Third
Appellate District's Judgment Entry dismissing my requested Writ
The judgment was affirmed.

of Habeas Corpus in paragraph 19.
24.

On 8-28-19, in the Ohio Supreme Court

(2019-1196)

State ex rel Kerry Kelsey, I filed a Direct Appeal of the Sixth
Appellate District's Judgment Entry dismissing my requested Writ
of Prohibition in paragraph 21.

The case is pending.

-4-

25.

On 10-7-19, in the Ohio Supreme Court (2019-1362)

Kerr Buildings, Inc. Bishop v Kerr, I filed a Discretionary Appeal
of the Third Appellate District;s Judgment Entery that affirmed
the Henry Court's Decision.

(SEe paragraph 17)

The Ohio

Supreme Court denied jurisdiction.
26.

On 3-30-20, in the Northern District of Ohio,

(Case no 3:20-CV-0670) Kerr v Turner, I filed a Writ of Habeas
Corpus in I claimed that the Appellate Court's "Significant
Amount of Work" Test is an unconstituional test.

The action is

pending.
Further, Affiant sayeth naught.
STATE OF OHIO

)

COUNTY OF MARION

) ss
)
AFFIANT

Sworn to, before me and subscribed in my presence on this

22

day of

wm
i
W

DONNA EVANS
NOTARY PUBLIC • STATE OF OHIO
Recorded In Crawford County
My commission expires Feb. 12, 2024

My Commision Expires:

, 2020.

i
NOTARY PUBLIC

2-/9-W

£>

-<5-

